No. 20-6877

IN THE
SUPREME COURT OF THE UNITED STATES

In re WILLIAM M. WINDSOR,

Petitioner

William M. Windsor, Petitioner
v.
Sean D. Fleming, Respondent

WITHDRAWAL OF PETITION FOR WRIT OF MANDAMUS TO

Tenth Court of Appeals of the State of Texas

William M. Windsor

Pro Se
100 East Oak Terrace Drive Unit B3
Leesburg, Florida 34748
billwindsorl@outlook.com
352-577-9988

1

COMES NOW, William M. Windsor ("Petitioner"), and files this NOTICE OF
SETTLEMENT AND VOLUNTARY DISMISSAL
The parties have settled this matter. Attached as EXHIBIT Z is the
MUTUAL FULL AND FINAL SETTLEMENT AGREEMENT.

Respectfully submitted, this 28th day of January, 2021.

William M. Windsor
100 East Oak Terrace Drive Unit B3, Leesburg, Florida 34748 *
billwindsorl@outlook.com * 352-577-9988

VERIFICATION AND CERTIFICATE OF GOOD FAITH
I hereby certify that this Petition is being filed in good faith. I also verify
under penalty of perjury pursuant to 28 U.S.C. ยง1746 that all statements of fact
contained herein are true and based upon my personal knowledge.
Certified this 28th day of January, 2021,

Otbruvlo.
William M. Windsor
Pro Se

2

CERTIFICATE OF COMPLIANCE
I hereby certify that this pleading has been prepared in Century 12-point
font, one of the fonts and point selections approved by this Court. This Petition
contains 2 pages and 41 words.
Certified this 28th day of January, 2021,

William M. Windsor
Pro Se

PROOF OF SERVICE
I, William M. Windsor, do swear or declare that on this date, January 28,
2021, as required by Supreme Court Rule 29, I have served the enclosed
WITHDRAWAL OF PETITION FOR WRIT OF MANDAMUS on each party to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid
or by email.
The names and addresses of those served are as follows:
Sean D. Fleming, c/o Barbara Hachenburg and Kelli Smith, Germer Law Firm,
America Tower, 2929 Allen Parkway, Suite 2900, Houston, TX 77019,
bhachenburg@germer.com ksmith@germer.com
Clerk, Supreme Court of Texas, PO Box 12248, Austin, Texas 78711, 512-463-1312,
Fax: 512-463-1365.
Clerk of Tenth Court of Appeals, McLennan County Courthouse, 501 Washington
Avenue, Room 415, Waco, Texas 76701-1373, 254-757-5200, Fax: 254-757-2822,
Nita.Whitener@txcourts.gov.
3

Judge Bob Carroll, 40th Judicial District Court, 109 S. Jackson Street, Third Floor,
Waxahachie, Texas 75165, carol.page@co.ellis.tx.us.
Judge William D. Wallace, 378th Judicial District Court, 109 S. Jackson Street,
Third Floor, Waxahachie, Texas 75165, katie.dophied@co.ellis.tx.us.
Judge Cindy Ermatinger, 443rd Judicial District Court, 109 S. Jackson Street,
Third Floor, Waxahachie, Texas 75165, cindy.ermatinger@co.ellis.tx.us.
Clerk of Ellis County District Court, 109 S. Jackson Street, Waxahachie, Texas
75165, 972-825-5284, Fax: 972-825-5276, melanie.reed@co.ellis.tx.us.

I declare under penalty of perjury that the foregoing is true and correct.
Executed the 28th day of January, 2021.

William M. Windsor
Pro Se

4

William M. Windsor
100 East Oak Terrace Drive, Unit B3 * Leesburg, Florida 34748
billwindsorl@outlook.com * 352-577-9988

January 28, 2021

Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
(202) 479-3011
Re:

20-6877: William M. Windsor vs. Sean D. Fleming.

Dear Clerk:
Enclosed is the following for filing:
1. Withdrawal of Petition for Writ of Mandamus.
If you have any questions, please call me at 352-577-9988.
Sincerely,

William M. Windsor
Pro Se

11,3 f. 1 t

u `;

RECEIVED
FEB -9 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

